<html>
<title> - RELIGIOUS FREEDOM IN EURASIA: ARE GOVERNMENTS KEEPING THEIR COMMITMENTS?</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
                   RELIGIOUS FREEDOM IN EURASIA: ARE
                 GOVERNMENTS KEEPING THEIR COMMITMENTS?

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 11, 2018

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 115-2-7]
                             
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                             


                       Available via www.csce.gov
                       
                       
                       
                       
                         _________

              U.S. GOVERNMENT PUBLISHING OFFICE
                   
34-828 PDF            WASHINGTON : 2019      
                      
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,       ROGER F. WICKER, Mississippi, 
Co-Chairman                             Chairman
ALCEE L. HASTINGS, Florida              BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama             JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas               CORY GARDNER, Colorado
STEVE COHEN, Tennessee                  MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina          JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas               TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                   SHELDON WHITEHOUSE, Rhode Island

                          

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]
                                  
                                  
                     RELIGIOUS FREEDOM IN EURASIA:
                        ARE GOVERNMENTS KEEPING
                           THEIR COMMITMENTS?

                              ----------                              

                           December 11, 2018
                             COMMISSIONERS

                                                                   Page
Hon. Roger F. Wicker, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1

Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     4

Hon. Christopher H. Smith, Co-Chairman, Commission on Security 
  and Cooperation in Europe......................................     6

Hon. Cory Gardner, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     8

                                WITNESS

Sam Brownback, Ambassador at Large for International 
  Religious Freedom..............................................     8


                     RELIGIOUS FREEDOM IN EURASIA:
                        ARE GOVERNMENTS KEEPING
                           THEIR COMMITMENTS?

                              ----------                              


                           December 11, 2018

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 10:47 a.m. in Room 106, Dirksen 
Senate Office Building, Washington, DC, Hon. Roger F. Wicker, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present:  Hon. Roger F. Wicker, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Benjamin 
L. Cardin, Ranking Member, Commission on Security and 
Cooperation in Europe; Hon. Christopher H. Smith, Co-Chairman, 
Commission on Security and Cooperation in Europe; and Hon. Cory 
Gardner, Commissioner, Commission on Security and Cooperation 
in Europe.
    Witness present:  Sam Brownback, Ambassador at Large for 
International Religious Freedom.

  HON. ROGER F. WICKER, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. This hearing of the Helsinki Commission will 
come to order. Good morning, and welcome to the hearing on 
``Religious Freedom in Eurasia: Are Governments Keeping Their 
Commitments?''
    The commitments on human rights and fundamental freedoms of 
the Organization for Security and Cooperation in Europe, the 
OSCE, are the strongest of any multinational security 
organization in the world. All 57 OSCE participating States 
have made these commitments, including the commitments on 
religious freedom. In the words of the 1975 Helsinki Final Act, 
quote, ``The participating States will recognize and respect 
the freedom of the individual to profess and practice, alone or 
in community with others, religion or belief acting in 
accordance with the dictates of his own conscience.'' Despite 
this and other OSCE commitments, some of the worst violators of 
religious freedom in the world are, regrettably, participating 
OSCE States.
    The International Religious Freedom Act of 1998, authored 
by my friend, former Congressman Frank Wolf, requires the 
president to issue annually an International Religious Freedom 
Report and designate the worst violators as Countries of 
Particular Concern--CPCs--a country so designated when its 
government has engaged in or tolerated particularly severe 
violations of religious freedom, defined as systematic, ongoing 
egregious violations such as killing, torture, prolonged 
detention without charges, abduction, or clandestine detention.
    Central Asia has the highest concentration of CPCs of any 
region in the world. Since 2016, Tajikistan, Turkmenistan, and 
Uzbekistan have been designated as CPCs. But perhaps there's 
good news. Under the leadership of President Shavkat 
Mirziyoyev, Uzbekistan is the only one of these CPCs moving 
toward compliance with its international obligations. His 
government has been taking significant steps to make the 
necessary reforms. That's why we're here today.
    That's why when Secretary Pompeo announced in May that he 
would host the first Ministerial to Advance Religious Freedom, 
I publicly urged him to consider inviting Uzbekistan. And 
indeed, this invitation was issued. Soon thereafter I 
introduced the bipartisan Senate Resolution 539 urging the 
president to strengthen efforts of the United States to combat 
religious freedom violations in Eurasia and providing a 
blueprint for some key action. The resolution acknowledges the 
reforms in Uzbekistan and calls on the United States to 
prioritize supporting ongoing reforms in Uzbekistan.
    The OSCE Parliamentary Assembly passed the Berlin 
Declaration in early July with amendments I authored, that 
recognized the government of Uzbekistan's ongoing reforms and 
encouraged the government to align national policies with 
Uzbekistan's OSCE and other international commitments. Later 
that month, I met with the Uzbekistan delegation to the 
Ministerial to Advance Religious Freedom. The delegation was 
led by Foreign Minister Abdulaziz Kamilov and included Senator 
Sodyk Safoyev, who is a former ambassador to the United States, 
and Akmal Saidov, Member of Parliament and head of the National 
Human Rights Centre. We discussed how the United States can 
work with Uzbekistan on reforms, security, and economic 
prosperity.
    Uzbekistan is already a strong partner of the United 
States. I'm pleased to say we have a special relationship 
between the Mississippi National Guard and Uzbekistan through 
the National Guard Partnership Program. We work closely 
together to support Afghanistan, fight terrorism, and combat 
narcotics. My good friend and colleague Representative Trent 
Kelly, who represents the First Congressional District of 
Mississippi--and is a brigadier general in the Guard--has seen 
firsthand the value of the joint military exercises between our 
forces. I share his view.
    I will now say what I've already said publicly: Uzbekistan 
can be an even stronger partner of the United States--and that 
is our goal--more economically prosperous and a model in the 
region and beyond. For this to be so, it must follow through 
with reforms and fully comply with its international 
commitments on human rights and freedoms. There is still a lot 
to do before the law, regulation, and government personnel are 
in full compliance with these commitments, including formally 
consulting with international experts, consistently holding 
perpetrators accountable for violations, and releasing 
religious prisoners who were arrested despite exercising their 
religion peacefully.
    The president of Uzbekistan and the Parliament have 
committed to reform and to keep Uzbekistan's international 
commitments. The Congress will continue to work closely with 
the executive branch and the government to achieve these 
objectives.
    Our witness today traveled to Uzbekistan in September and 
has a long history with Central Asia. But there are more 
reasons why he's ideal to discuss these and other OSCE issues 
today. Sam Brownback, my friend of 25 years, is Ambassador at 
Large for International Religious Freedom. This is his first 
congressional hearing since being confirmed. I'm especially 
pleased to welcome him as a former House colleague, a former 
Senate colleague, and a former Helsinki Commission member. His 
qualifications are numerous. I will place them in the record 
and welcome Ambassador Brownback.
    Mr. Ambassador, thank you for your unflagging efforts to 
get Pastor Brunson freed from imprisonment in Turkey on 
baseless charges of terrorism and espionage, including 
traveling to Turkey to attend the trial. Thank you, sir, for 
that. The full-court press, from you, President Trump, Vice 
President Pence, Secretary Pompeo, and Members of Congress--
both Republican and Democrat--made the difference. His release 
was the answer to many prayers. I repeat my call for the 
administration to maintain Global Magnitsky sanctions on 
Turkish officials complicit in the continued unjust detention 
of American citizens and consulate employees. NATO has no space 
for hostage-taking.
    I'm grateful to you, Mr. Ambassador, for the annual OSCE 
Human Dimension Implementation meeting in Warsaw, Poland. 
Having someone of your seniority and stature in the chair was a 
strong signal of the importance of religious freedom in this 
administration. I'm also heartened that while in Poland you 
joined the Helsinki Commission-initiated visit by the U.S. 
delegation to the memorial at the Auschwitz-Birkenau death 
camp--a place where Senator Cardin and I have also visited--and 
laid a wreath and lit a candle on behalf of the American 
people.
    As a final introductory remark, let me note with sadness 
the passing this weekend of Russian human rights advocate 
Ludmila Alexeyeva, one of the founders of the Moscow Helsinki 
Group in 1976. Already an experienced human rights activist 
going back to the 1960s, she was exiled from the Soviet Union 
after the Moscow Group formed. She found a home in the United 
States, where she continued to struggle for human rights in her 
country. She was a strong supporter of this Helsinki 
Commission, and helped us enormously in our work. She returned 
to Moscow in 1993 and remained an advocate of human rights in 
Russia until the end, including those rights which are the 
focus of this hearing. Ludmila will be deeply missed. We hope 
that her life has inspired new generations of activists in 
Russia and elsewhere--activists that will seek to hold 
governments accountable for violations of the Helsinki Final 
Act and other OSCE commitments.
    We are joined today by two very distinguished human rights 
advocates. I will turn to them for whatever introductory 
remarks they would like to make. Senator Ben Cardin, my 
colleague from Maryland.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Mr. Chairman, first, thank you very much for 
holding this hearing.
    I just want to make one observation, if I might. This will 
be the last hearing of the Helsinki Commission in this 
Congress. We have been led by Senator Wicker, who's done a 
great job as our chairman during extremely difficult 
international times. Under the Helsinki statute, the 
chairmanship will now go back to the House of Representatives 
in the 116th Congress. I just want to congratulate Senator 
Wicker for the work that you did during these 2 years leading 
the commission very actively, attending international meetings, 
raising human rights issues around the OSCE region--including 
here in the United States--and being just a great leader of the 
commission.
    It's been an honor to be your ranking member on the Senate 
side. I know the co-chair, Congressman Smith, who's had a long 
tenure--the longest tenure on the Helsinki Commission--
participated in a very active way to make sure we had a very 
successful year. It's really a pleasure to serve on this 
commission, when you don't know who the Democrats and 
Republicans are when it comes to the commitment of the Helsinki 
Final Act. So it is wonderful that Senator Wicker continued in 
that tradition.
    We don't always find the senators as active as House 
members at times. That was certainly not true when Senator 
Brownback was on the commission, because he was a very active 
member of this commission. He got his training, we think, in 
the Helsinki Commission. He has shown really good judgment by 
making his first congressional hearing in the Senate before the 
Helsinki Commission. So we applaud you on that good judgment. 
We do apologize--I thought Senator Wicker had more clout with 
the leadership and we wouldn't be interrupted by votes, but 
that's not going to be the case because there's a vote 
scheduled at 11 today.
    I also join the chairman in expressing our condolence on 
Ludmila. She was a pioneer in standing up for human rights 
under the Soviet Union when, as you know, the risk factors were 
so high for anyone to speak out against the government or to 
speak out in favor of human rights. She was there from the 
beginning of the Helsinki process and, of course, was very much 
engaged in the human rights Moscow Helsinki Group. She came 
here for safety. She returned to Russia after the fall of the 
Soviet Union and has continuously been a beacon of hope for 
those who stand up for the principles of the Helsinki Final 
Act.
    One of those principles is the right to practice your 
religion. Let me just quote, if I might, from the Helsinki 
Final Act. ``Recognize and respect the freedom of the 
individual to profess and practice, alone or in community with 
others, religion or belief, acting in accordance with the 
dictates of his own conscience.'' That's one of the basic 
principles. We're very proud that we have put a major focus on 
that, including with our Ambassador Brownback, to fight for 
religious protections around the world. In the OSCE, we see it 
under attack in Europe and in the United States.
    We all know the recent attacks on religious practice here 
in the United States, the horrific event that took place in 
Pittsburgh, where 11 people were killed solely because they 
were in the house of prayer of their religion. We also know 
that shortly before that, an African American church was 
targeted in Kentucky. So we have problems here. I can tell you 
we need to understand that hateful and racist rhetoric has 
consequences. We have to speak out in leadership against any 
hate here in America and anywhere around the world.
    I know my colleagues experience the same as I have. I've 
traveled throughout the whole OSCE region. I always try to 
visit a synagogue when I'm in one of the countries. I've seen 
over time the amount of security on my visits to a synagogue 
have always increased. That's a reality of the target areas for 
people to express their anger and hate. We now see that's true 
also in the United States. I am amazed at the amount of 
security that I see at houses of prayer here in the United 
States. That's the new reality. I'm not criticizing the amount 
of protection, because we want people to be safe, but I do 
think it points out that the U.S. has always been at the 
forefront on the Helsinki principles, particularly religious 
freedom. We need to not only fight for that globally, but we 
have to recognize that we have challenges here at home and we 
have to take care of our own issues as well.
    I am proud to be the special representative of the OSCE 
Parliamentary Assembly for anti-Semitism, racism, and 
intolerance. In that capacity, I've tried to set as priorities 
the protection of people and all religions. We're very 
concerned about the attacks on Muslims, on Christians, and on 
Jews. We fight in all of those areas. I've introduced 
legislation here that I hope one day will be passed to end 
racial and religious profiling by law enforcement. It's one of 
the priorities of the OSCE special representative that the 
discriminatory policing, which is true in Europe, but also true 
here in the United States, and also true in my home city of 
Baltimore, as we saw in a pattern and practice investigation by 
the Department of Justice.
    Mr. Chairman, let me just point out we are seeing an 
increasing intolerance abroad under the guise of national 
security. Countries throughout the OSCE have laws that would 
severely impact the practice of religious communities. Rising 
intolerance against Muslim communities is evident by efforts to 
adopt laws restricting the religious practice of Muslims, from 
the banning of a mosque in Sweden to recent bans on Muslim 
women attire in Austria and in Denmark. Close to 15 countries 
exercise prohibitions on Muslim religious ritual slaughter of 
animals. Many Muslim communities still face excessive 
regulations or other barriers attempting to build mosques. 
Earlier this summer, political leaders in Austria called for 
Jews and Muslims to pre-register to consume kosher/halal food, 
uncomfortably echoing the use of lists to track Jews during the 
Holocaust.
    Jews and Christian communities are also implicated in the 
so-called fight against radical Islam. During this year's 
French elections, one candidate pledged to ban all religious 
clothing--including Christian crosses, Jewish kippahs, 
reasoning that Jews and Christians would have to make this 
sacrifice to fight for the advance of political Islam. These 
efforts increasingly pit religious and other vulnerable 
communities against one another at a time when communities 
should be working toward addressing hate.
    Mr. Chairman, I'm very pleased we have Ambassador Brownback 
here. I think what we need to do at this commission, which has 
been the hallmark of America's commitment to fighting 
intolerance and hate, that we have a strategy to show that 
America truly is in the leadership to say that hate has no 
place in any community, and we protect all minority communities 
in their ability to practice their religion, how we show that 
leadership here in America and throughout the OSCE, and 
throughout the globe.

HON. CHRISTOPHER H. SMITH, CO-CHAIRMAN, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Smith. Thank you, Senator Cardin.
    I too want to add my welcome and complete gratitude to 
Ambassador Brownback. Thank you for your decades of leadership 
for religious freedom. Your hard work and achievement on this 
issue as a Congressman, Senator, including as chairman of this 
commission, and then as Governor, made you the most eminently 
qualified person to be our Ambassador at Large for 
International Religious Freedom. Indeed, the nation--and I 
would argue the world--is very fortunate to have you in this 
critically important and very strategic position. So thank you 
for that service.
    I'd like to just briefly raise a few countries of concern 
that I am particularly focused on first and you are as well. 
Russia--pursuant to the Frank Wolf International Religious 
Freedom Act, the State Department is announcing today that 
Russia will be placed on the Special Watch List, which we newly 
created, a designation for governments that engage in or 
tolerate severe violations of religious freedom. The violations 
of religious freedom in Russia are real, thoroughly documented, 
and at times brutal. The Russian Government deserves this. Next 
year we should consider carefully whether it belongs on the 
list of Countries of Particular Concern, or CPC list, for the 
worst of the worst.
    Second, Central Asia. For the past several years the U.S. 
Government has designated Uzbekistan, Turkmenistan, and 
Tajikistan as Countries of Particular Concern. These 
governments are guilty of particularly severe violations of 
religious freedom, as the statute has it, and the State 
Department is announcing that Turkmenistan and Tajikistan 
remain on the CPC list, and Uzbekistan will be moved to a 
slightly less-reprehensible watch list, the Special Watch List. 
I'm sure you will discuss that today and give us some insights 
about how those decisions were arrived at.
    The government of all three used sweeping counterterrorism 
authorities to target broad categories of individuals engaging 
in unsanctioned religious practice. Uzbekistan holds thousands 
of individuals in custody for such infractions. Meanwhile, 
Turkmenistan continues its heinous practice of holding untold 
scores of prisoners incommunicado, in abject conditions, and 
trials in secret courts. This kind of mirrors exactly what the 
Chinese are doing against the Muslim Uyghurs, although that is 
on an absolute massive scale. Marco Rubio and I co-chair the 
China Commission. We had another hearing just a week ago on 
this brutality that's being used under the guise of 
antiterrorism to crack down on people that they find 
objectionable--in that case, Muslims in that part of the world.
    Third, Turkey. Just 2 months ago Turkey released American 
Pastor Andrew Brunson. I want to thank you for being at his 
trial--you and Senator Tillis. I think that sent a clear 
message of U.S. resolve and concern. We know that he was 
detained for more than 2 years on bogus terrorism charges. 
Turkey's mistreatment of this innocent man and his family was 
absolutely unconscionable. In its 2018 annual report, the 
United States Commission on International Religious Freedom 
(USCRF) found that Pastor Brunson's prolonged and unjustified 
detention, quote, ``had a chilling effect on Christians living 
in the country.''
    Indeed, Pastor Brunson's plight appears to be not only the 
most publicized incident making a disturbing increase in 
government targeting of protestant ministers. Citing Turkey's 
Association of Protestant Churches, USCRF reports that at least 
100 pastors have been forced to leave Turkey due to government 
refusals to renew visas or other permits. Sadly, the brutal 
repression of the Orthodox Christians is ongoing, particularly 
in Turkish-occupied Northern Cyprus, where its 44-year 
occupation of Northern Cyprus has left a legacy of destruction, 
gutting ancient religious life, and despoiling priceless 
cultural property. According to the government of Cyprus, the 
estimates are 500 Greek Orthodox churches and chapels have been 
pillaged, vandalized, or demolished, 133 churches, chapels, or 
monasteries have been desecrated, the whereabouts of 15,000 
paintings are unknown, 77 churches have been turned into 
mosques, 28 are being used by the Turkish military forces as 
hospitals or camps, and 13 are used as agricultural barns.
    The Turkish Government also continued to meddle in the 
internal affairs of major Christian and Jewish authorities. The 
government wields effective veto power over leadership 
elections within these institutions by requiring that electors 
and candidates hold Turkish citizenship--something the state 
alone can confer. This unjustifiable requirement directly 
violates the internationally recognized right of the ecumenical 
patriarch of Constantinople, the Armenian patriarch of 
Constantinople, and the chief rabbinate of Turkey to conduct 
their own affairs, free from unwelcome external interference.
    Astonishingly, in the Haliki seminary, the only theological 
school for the training of priests for the ecumenical patriarch 
of Constantinople, remains closed 47 years after it was first 
shuttered by the state. This situation endures despite numerous 
public commitments from Turkish officials over the years 
guaranteeing the seminary's reopening.
    Taken together, this litany of long-standing and flagrant 
religious freedom violations strikes me as abundant 
justification for the administration to designate Turkey as a 
Country of Particular Concern, or at a minimum as a Special 
Watch List country.
    I do look forward to your testimony. I would like to yield 
to my good friend and colleague, Mr. Gardner.

  HON. CORY GARDNER, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Gardner. Thank you, Mr. Ambassador. Thank you for your 
service and the heavy work ahead that you have and continue to 
do.
    Obviously, matters of religious freedom have taken a more 
and more prominent role in the work that we do each and every 
day in Congress--rightfully so. Just last week I chaired a 
hearing in my Asia Subcommittee, where we were talking about 
religious freedom in China, where we talked about Tibet, and we 
talked about Chinese authorities' determinations to impose 
their own Dalai Lama, and whether or not countries around the 
world would recognize that fiat from the Chinese Government. 
Recent reports there have talked about registrations and 
pastors going missing, and what happens to people who speak 
out, whether or not they're establishing a religion of 
President Xi in churches.
    This is an important issue in Europe. It's an important 
issue in the United States. It's an important issue in Asia. 
It's important, as you know, around the globe. So I'm grateful 
for your service and the challenges that we have. I hope today 
in your discussion that you'll also talk about other leaders 
around the globe that we can help turn to, other nations that 
are providing leadership, and hope for us to partner with as we 
look out for people's ability to worship freely. This is a 
human right, and it's something this Congress will always stand 
up for.
    Thank you, Ambassador.
    Mr. Smith. Thank you so much.
    I'd like to now formally introduce Senator--Senator, that 
too--Ambassador Sam Brownback, who was sworn in as Ambassador 
at Large for International Religious Freedom on February 1st, 
2018. He served as Governor of Kansas from 2011 to 2018. 
Previously he served as a U.S. Senator from 1996 to 2011 and a 
Member of Congress from 1995 to 1996. While a Member of the 
Senate, he worked actively on the issue of religious freedom in 
multiple countries and was a key sponsor of the International 
Religious Freedom Act of 1998. He also served as Kansas 
secretary of agriculture from 1986 to 1993 and was a White 
House fellow in the Office of the U.S. Trade Representative 
from 1990 to 1991.
    Prior to his public service, Ambassador Brownback was a 
private attorney in Kansas and taught agricultural law at 
Kansas State University, co-authoring two books on the subject. 
He earned his B.S. from Kansas State University and his J.D. 
from the University of Kansas. Again, we welcome with great 
gratitude Ambassador Brownback.

SAM BROWNBACK, AMBASSADOR AT LARGE FOR INTERNATIONAL RELIGIOUS 
                            FREEDOM

    Amb. Brownback. Thank you very much, Mr. Co-Chairman, and 
Senator Gardner. Good to see you all. I know you've got to go 
vote, and I've been on that train. I'm glad when the bell rings 
I don't jump anymore. So best to you, and thank you guys, both, 
for your heart and your long service. And Chairman Wicker as 
well.
    Human rights are just critical, but they need advocates. 
They need people like yourselves to really push. It makes a 
huge difference. No other country in the world pushes it like 
we do. I mean, the Europeans do, and other places do. But it's 
the United States and the muscle of the United States that 
makes the difference, and particularly in this space of 
religious freedom.
    We're the ones that push it. The first-ever ministerial on 
religious freedom was conducted by the United States, by the 
Trump administration, this past July. Nobody's ever done that 
before. We had 84 countries at it. It was fabulously 
successful. We had hundreds of civil society religious freedom 
advocates that were there. We're going to do it again this next 
year. The secretary has already announced that we're going to 
get a much bigger room, so we can get more advocates added. 
This is really taking off.
    We've got now six countries we're working with, to your 
question, Senator Gardner, to do regional religious freedom 
summits in various places. They'll soon be announced and on 
specific topics. I hope some of you may consider going to some 
of these, and possibly speaking at them, if they're in areas 
and places that you feel like it would be of something of 
interest. Countries are stepping up. They're expressing 
themselves. This was one of those areas that we've just got to 
push the global community to do something, because virtually 
everyone has signed the U.N. Declaration of Human Rights, which 
declares support for religious freedom.
    And yet, 80 percent of the world lives in a religiously 
restrictive atmosphere, much of it trending badly. So while 
everybody's for it, very few practice it. Then we constantly 
hear about deaths and buildings being burned and people being 
taken hostage all over the world, on a regular basis. It's the 
United States' advocacy that really keeps people alive.
    I want to thank a number of members of this commission and 
others for the help with Andrew Brunson. I want to singularly 
thank President Trump for getting Andrew Brunson out. His 
putting of tariffs on Turkey, a NATO ally, that's never been 
done before, was really, I think, the factor that pushed the 
Turkish Government to release Andrew Brunson, and thankfully 
so.
    I want to join with the chairman on expressing my 
condolences as well to family and friends of people that were 
impacted by Ludmila Alexeyeva, incredible defender of human 
rights that died in Russia at age 91. I didn't personally know 
her, but everybody that I know that did work with her said she 
was an absolutely amazing lady, and the things that she did and 
got accomplished were incredible.
    Before I begin my prepared testimony, I want to put forth 
some news. Here earlier today the secretary publicly announced 
his designation of Countries of Particular Concern under the 
International Religious Freedom Act of 1998, and the follow-on 
Frank Wolf Act. These are countries that have engaged in or 
tolerated systemic, ongoing, and egregious violations of 
religious freedom. These include, this year, Burma, China, 
Eritrea, Iran, North Korea, Pakistan, Sudan, Saudi Arabia, 
Tajikistan, and Turkmenistan. Those are the countries that the 
secretary has announced as Countries of Particular Concern.
    He also placed Comoros, Russia, and Uzbekistan on a Special 
Watch List for governments that have engaged in or tolerate 
severe violations of religious freedom. It's worth noting that 
for the first time since 2006, Uzbekistan is not a Country of 
Particular Concern and Pakistan has been added as a Country of 
Particular Concern. Finally, the secretary designated Al-Nusra 
Front, al-Qaida, al-Qaida in the Arabian Peninsula, Al-Shabaab, 
Boko Haram, the Houthis, ISIS, ISIS-Khorasan, and the Taliban 
as Entities of Particular Concern according to the designation 
allowed under the Frank Wolf Act. These designations are a tool 
and key part of our efforts to advance religious freedom.
    I want to thank you for your dedication and commitment to 
this process. We're grateful for your partnership in defending 
and promoting religious freedom around the world. I look 
forward to discussing these designations. I might note that 
these are all things that were put forth by the Congress. 
Congress has been particularly interested in religious freedom 
and has really propelled this area. So I'm thankful for it. 
This is an ongoing review. So while there may be people on this 
list or not on this list, we continually review this. Pakistan, 
as you may recall, was added as a Special Watch List in the 
middle of last year by the former secretary.
    I value the work of the Helsinki Commission and its 
members. When I reflect on my time in the Senate, I'm humbled 
by the human rights work. Those are things you look back on as 
a Senator and Congressman. You do lots of different things, but 
the human rights work, you're touching people. Thank you for 
doing it. It's an honor to be back with you.
    Religious freedom is a beautiful right. It flows from the 
inherent dignity of each human being. No state, in our 
estimation, can rightly take it away. This is a God-given 
right. And no state has that right then to interfere with it. 
It is also an obligation under international law that people 
and governments protect religious freedom. This administration 
is serious about pushing that. Today, as I noted, nearly 80 
percent of the world lives in countries with significant 
restrictions on religious freedom. This is totally 
unacceptable--totally unacceptable. That's why this 
administration established religious freedom as a top foreign 
policy priority. And we're acting on it.
    I mentioned the first ministerial that we put forth to 
nature and push for religious freedom, but also trying to 
expand the reason for countries to pursue religious freedom. In 
the past we've mostly stated this is a right--this is a key 
right and you're entitled to it. Now we note to countries, if 
you want less terrorism and more economic growth, you need more 
religious freedom. It's a key part of growth and a key part of 
less terrorism. So we're noting the positive benefits of this.
    Since being sworn in in February this year, I've traveled 
to a number of countries to press for religious freedom 
reforms. Because of the priority this administration has placed 
on religious freedom, I've had the opportunity to meet and work 
with a number of heads of state, including the leaders of 
Ukraine, Uzbekistan, Nepal, and Hungary, as well as dozens of 
foreign ministers. My first visit was to Turkey to, as you 
noted, Andrew Brunson's hearings, who was wrongfully imprisoned 
for over 2 years. Thanks to the work of the president, the vice 
president, as well as Members of Congress, he's free and at 
home.
    But we are engaged in other areas of the OSCE region as 
well. In September, I traveled to Ukraine where I met with 
religious leaders, parliamentarians, and President Poroshenko. 
I expressed the United States' belief that members of religious 
groups--including the Ukrainian Orthodox Church--should have 
the freedom to govern their religion according to their 
beliefs, free of outside pressure and malign influence. I then 
traveled to Poland, where I made an intervention at the OSCE 
Human Dimension Implementation meeting, reinforcing the United 
States' commitment to religious freedom and to combating the 
scourge of anti-Semitism. As you noted, we traveled to 
Auschwitz as well, an absolutely unforgettable place and trip.
    At the Human Dimension Implementation meeting, the U.S. 
delegation also spoke about what we are seeing in Russia, and 
particularly, overly broad anti-extremism laws that are misused 
to target for prosecution peaceful members of religious 
minorities and unduly restrict peaceful religious expression, 
belief, and worship. Russia has continued to do that with a 
number of different groups, thus their being placed on the 
Special Watch List.
    Central Asia, another area of focus. In September I visited 
Uzbekistan, where I met with President Mirziyoyev and discussed 
the economic and security benefits that come from an increased 
recognition and protection of religious freedom. Uzbekistan's 
new leadership is truly committed to making changes. They've 
made changes in a number of areas, including religious freedom 
areas.
    With respect to Kazakhstan, at the ministerial in July I 
engaged the foreign ministers and urged full protection for 
religious freedom in Kazakhstan, and other senior U.S. 
officials have continued to press that as well.
    Regarding Turkmenistan, my office takes part in an annual 
bilateral consultation with their government, to urge the 
government to ease registration requirements for religious 
organizations, and lift restrictions on religious literature, 
and decriminalize conscientious objectors to military service.
    One last trip I'll mention. Right before Thanksgiving I 
visited Hungary. I thanked the government for their engagement 
on humanitarian aid to religious groups in Iraq. They have been 
one of the pioneers to help re-establish some of the religious 
minorities in northern Iraq, particularly the Christians and 
the Yazidis. I also met with religious leaders and civil 
society groups, who are key to establishing and sustaining an 
environment that is conducive to religious freedom. I met with 
Jewish leaders and visited a synagogue as well--the synagogue 
was in Ukraine.
    Our world is filled with challenges to religious freedom. 
But I have faith that, in time, our dedicated work in 
partnership with civil society groups, religious leaders, and 
visionary parliamentarians and legislators like you, here and 
around the world, will open the gates to religious freedom for 
all. Indeed, I am heartened to see all the people committed to 
religious freedom that work here in this town. I would invite 
either of you gentlemen to attend the religious freedom 
roundtable that we do every Tuesday when I'm here with the 
religious freedom activists, from 11 to noon, normally on the 
Hill. They would love to hear from you. We regularly are 
getting over 100 people attending that, and activists that want 
to pursue these topics. There's a dedicated group that's here. 
They're moving forward. I think really now is a key season for 
us to push this right around the world. I look forward to the 
discussion and your questions.
    Mr. Wicker. Thank you very much, Ambassador Brownback. We 
appreciate your testimony and we appreciate your efforts.
    Let's just talk about the movement represented by 
designation of the Special Watch List today. Specifically, the 
inclusion of Uzbekistan represents a positive step, is that not 
correct, Mr. Ambassador?
    Amb. Brownback. That is correct.
    Mr. Wicker. If you will outline--although your testimony 
has touched on this--the positive steps that make us optimistic 
about Uzbekistan. Then if you would talk about two other 
particular countries--and I know they're all of interest--but 
in particular what is happening in a negative way in Pakistan? 
And what has happened over the last reporting period in Russia 
that brought about the change in their status?
    Amb. Brownback. Thank you, Mr. Chairman.
    The Uzbeks have decided they're going to move promptly 
forward on human rights. They've changed in a number of 
categories. I had a 2-hour meeting with the president where we 
discussed what all they needed to do. We had the U.N. special 
rapporteur on religious freedom go out to Uzbekistan, do a 
special report, what changes they need to make. We just told 
the Uzbeks, basically, implement the report and we'll move 
forward with you.
    To date already what they've done is they've released over 
1,000 religious prisoners. They've delisted thousands of 
individuals from blacklists, many of who previously accused on 
engaging in religious extremism. They registered 14 religious 
organizations, including the first Christian church in nearly a 
decade. They're allowing the majority-Muslim population to 
practice more freely, including allowing children to be able to 
go to mosque for the first time. They didn't previously allow 
them to go to mosque. They passed a religious freedom roadmap 
to address recommendations that the U.S. special rapporteur 
made. Now, it's a roadmap. So in effect, we would look at it as 
a resolution. They haven't put it into law, but they've said 
our next step is to put these into law.
    Those are a series of the steps that they've made. In my 
interactions with the government officials, we're continuing to 
press them on any other religious prisoners.
    Mr. Wicker. Mr. Ambassador, when do you think that law 
might be voted on?
    Amb. Brownback. I was hopeful this year, but I just heard 
word this morning that it won't be until next year that they'll 
actually implement it. But they're still on the Special Watch 
List because they continue to have issues and problems. There 
was a Baptist church that was recently raided. They had 
previously stopped all the raids, but then this just happened. 
I called the foreign minister up about that. I've been 
personally engaged with the Uzbeks very aggressively, because 
we want to showcase to other countries in Central Asia, there 
is a way off this list. But you got to change. You got to 
really do things. The Uzbeks have done a series of things, but 
they continue to be on the watch list because of concerns that 
we have that still remain in place. The resolution, the 
roadmap, has not become law.
    Mr. Wicker. Mr. Ambassador, before you get to the other two 
countries I asked about, is it your sense that public opinion 
in Uzbekistan is behind the president and the leadership in 
moving toward more acceptance of religious freedom?
    Amb. Brownback. Yes.
    Mr. Wicker. And is this is a way for Uzbeks to have a 
better economy, is that not correct, and a better life for 
everyone?
    Amb. Brownback. That's a big reason, I believe, why the 
leadership is pursuing it. They want to show you can do this. 
And our data says you do it, you will have less terrorism and 
more economic growth. We believe it. They've been taking these 
measures publicly. They've held press conferences here at the 
National Press Club and in New York to showcase the new 
Uzbekistan, and more opening to the West. I'm hopeful that this 
is very successful, for them to show a different scene. That's 
part of our effort to expand the draw of religious freedom. 
Heretofore, we basically pushed countries. We put up name and 
shame lists. We would say: You need to do this because of your 
international obligations. We want to say as well to countries, 
it's also good for you on less terrorism, and you're going to 
have more economic growth.
    Mr. Wicker. If you could, then, take a half a minute and 
sort of summarize what's going on in Pakistan and Russia.
    Amb. Brownback. Pakistan continues to enforce blasphemy 
laws. This is an area that in our Potomac Declaration out of 
the international ministerial that we did said these need to be 
repealed around the world. Half of the people that are in 
prison for blasphemy laws around the world are imprisoned in 
Pakistan. They continue to not allow the Ahmadi Muslims to 
practice their faith or even call themselves Muslims. There 
continues to be a lot of violence taking place in Pakistan. 
Now, a new government's been elected. They have indicated a 
desire to change courses and to work more openly.
    Recently, when there were a number of protests that were 
taking place, a number of the protests were regarding somebody 
that was released on the blasphemy charges. They arrested a 
number of the leaders of the protest. It's a positive sign from 
this new government. Still, you base these findings on what the 
report that we put out this last year was. Pakistan we put on 
this Special Watch List in the middle of the year. They 
certainly meet the criteria of a Country of Particular Concern.
    Mr. Wicker. And Russia.
    Amb. Brownback. Russia's been trending in the wrong 
direction. It has done a series of things--arbitrary arrests 
and imprisonments, particularly of Jehovah's Witnesses, they 
were banned, widespread suppression of religious expression and 
practice. They have a 2016 law criminalizing illegal missionary 
activities that's included 156 such cases reported by NGOs in 
2017, starting with Salvation Army, Pentecostals, Jehovah's 
Witness of course, Baptists, the administrative center of the 
New Apostolic Church, the Presbyterian Church, the Lutheran 
Church, the Church of Jesus Christ of Latter-Day Saints, 
Ukrainian Reformed Orthodox Church, and the Russian Orthodox 
Church Abroad. Along with a series of Muslim groups, and then 
they banned the readings of the Turkish Islamic theologian Said 
Nursi under a distorted interpretation of its extremist laws.
    They have 145 currently jailed prisoners for religious 
beliefs, 106 of which are Muslims. They particularly as well go 
after the Church of Scientology. And those are the reasons that 
we've put them on the Special Watch List, along with other 
areas as well we could talk about. Some of the things they're 
doing in eastern Ukraine that prohibit religious expression in 
that region, and these are by groups that are supported and 
sponsored by Russia.
    Mr. Wicker. Thank you.
    Congressman Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Mr. Ambassador, if I could, as you know, we all know, there 
is a rising tide of anti-Semitism, particularly in the Middle 
East but also in Europe and the United States. The most recent 
FBI hate crime statistic shows that from 2016 to 2017 the 
number of anti-Semitic hate crimes directed based on religious 
belief of identity jumped by 37 percent. It is now 58 percent, 
far eclipsing any acts here in the United States against 
Muslims, or Christians, or anyone else. That is mirrored 
throughout the OSCE space itself. And I'm wondering--you know, 
we have been asking the president--and perhaps you could take 
this back--repeatedly to put in place a special envoy.
    I authored that amendment in 2004 that created the special 
envoy. It seems to me that that point person, working in tandem 
with you, would greatly--especially during this rising tide 
that's occurring--to get that person in place. So I would 
respectfully ask that you could raise that with the president. 
I've raised it with Secretary Pompeo. He promised. They had 
someone, and apparently there was a real problem with a health 
issue. So hopefully as soon as possible that person could be 
put in place.
    Second, on the whole issue of the designated persons list 
for particularly severe violations of religious freedom, which 
we included in the Frank Wolf International Religious Freedom 
Act, my hope would be that that list could be forthcoming, 
because that would work in tandem, in my opinion, with the 
Global Magnitsky Act. The more we put people on lists who 
torture and abuse, the more we're going to get compliance. As 
you mentioned so well, as soon as President Trump moved 
economically against Erdogan, that was probably the linchpin 
that caused Pastor Brunson to be freed. So that designated 
persons list I think is extremely important.
    On the training issue, going back to when Frank Wolf wrote 
his original bill, and when I wrote the bill that we named in 
his name, training has always been a problem. There are great 
Foreign Service officers and deputy chiefs of mission and 
ambassadors. But if they don't get the right training--and you 
and your staff certainly know it inside and out, all the 
nuances of religious freedom and/or the lack thereof--but it 
seems to me that we need to do a better job on that training 
component. And you might speak to what--and we put that in the 
Wolf bill--we tried to ratchet up a better understanding.
    Like you, I travel all over the world, and I have been 
astonished by some foreign services and even ambassadors whose 
perspective on religious freedom is, at best, naive, if not 
prejudicial, while others are all-in, and they understand it, 
and they are competent as the day is long. So we need, I think, 
to raise that bar if we could.
    And finally, on the issue of Turkey, I would hope there 
would be an ongoing evaluation for the designation of Turkey as 
a CPC country. As I said in my opening, their persistent 
violations of religious freedom and their acts of persecution 
have been longstanding, but they're fresh every time they 
commit or recommit them, which is ongoing. It's pervasive. I've 
been to Turkey many times. I've been to Ankara, Istanbul. I've 
raised these issues. We raised it--Mr. Wicker and I--Senator 
Wicker and I--when we were in Istanbul for the OSCE 
Parliamentary Assembly and got a lot of blank stares from some 
of the parliamentarians for raising those issues. So there is a 
problem. I think CPC directed toward Turkey for its 
mistreatment of so many, including the Orthodox, would send a 
powerful, powerful message. So with respect, I would ask that 
that be considered as well.
    Amb. Brownback. Thank you very much, Congressman Smith.
    Let me first start by saying the Religious Freedom Act 
turned 20 years this year, that you and Senator Nichols did, in 
the Senate side, and a number of others. I was supporting of 
it. I said yesterday, while things have not been going well 
lately, I think the pump's fully primed. It's ready to go. 
Things are moving now. You're going to see a lot of action. 
You've seen a lot more action. You're going to see a lot of 
action on religious freedom.
    The special envoy, the secretary is committed to get an 
anti-Semitism special envoy appointed. He had one. There were 
issues. I've been cleared to say that we anticipate somebody 
will be in that job right after the first of the year. So it is 
not for a lack of effort. There just seriously had been health 
issues that come up. In his place, I have been meeting with 
Jewish outside groups. When I travel, I meet with Jewish 
activists as well, raise these issues regularly. It was raised 
at the ministerial. We had a sidebar on anti-Semitism. It has 
been rising. You'd think, and the shadows of World War II and 
what happened to the Jewish community and the Holocaust, that 
people would say never again, and it would literally mean that. 
And yet, you see it rising again. But hope to have that person 
onboard relatively soon.
    Thank you for your suggestion on the designated persons 
list. I think that's a good thought of another tool. You've 
seen this administration use Global Magnitsky in a number of 
settings. It's an important tool that's a recent one that the 
Congress has given the administration. It is used, and I think 
used quite a bit, and will be used more.
    We're doing more training. Our office--Dan Nadel, that's 
the Foreign Service head of the office, is out regularly doing 
training. We're getting more training sessions established. I 
agree with you, it's something that needs to take place. We've 
got this great Foreign Service system. They're generally used 
to being trained in other fields, but not so used to being 
trained in this field. But now with the administration's 
putting this big push on religious freedom, more of these 
training sessions are set up and you'll see more of this 
happen. It is important, because like anything you need--people 
need to know how to operate the equipment. We've got equipment 
that the Congress has passed. There's the second bill, Frank 
Wolf Act, that gave more tools here. We need to use that.
    Turkey has been an area of real concern. I've been there. I 
met with the Ecumenical Patriarch Bartholomew as well when I 
was there. The concerns that he raises, that Brunson raises, 
that other pastors have raised, that the situation has been--
it's one we continue to watch, and work, and actively work 
throughout the agency. I can tell you, it's not for lack of 
discussion of focus. They are a NATO ally. That creates other 
pressures in other places. We were pleased that they finally 
released Pastor Brunson. He shouldn't have been taken in the 
first place. He shouldn't have been held for 2 years. But they 
continue to be one that merits a lot of focus and does get a 
lot of focus from this administration and from my office and 
will continue to.
    Mr. Wicker. Ambassador, just let me tie up one little loose 
end on Uzbekistan. OSCE has the Parliamentary Assembly, which 
those of us at this table are part of. There's also the Office 
of Democratic Institutions and Human Rights, commonly known as 
ODIHR. They're available to help countries that want to move in 
the right direction in areas such as human rights and areas 
such as religious freedom. But the country has to ask for it. 
So I wrote a letter to Uzbekistan asking them to request the 
assistance of ODIHR. I sent the letter to the Foreign Minister 
Kamilov urging the government formally to request an ODIHR 
legal review. I've not received a response. Do you have any 
knowledge about that? Is this something that's come to your 
attention? And do you have--do you know if, in fact, Uzbekistan 
has availed themselves of this tool?
    Amb. Brownback. Mr. Chairman, I don't know. I'll have----
    Mr. Wicker. Okay, I'm spreading that on the record today 
and saying it publicly to anyone within the sound of our 
voices, that I think this would be a very positive step for a 
country that is absolutely legitimately intent on moving in the 
right direction. And so I'll let you have the last word in this 
hearing, but let's celebrate the progress that we're making in 
this one section of the globe, Uzbekistan. I don't want this 
hearing to be seen as coming down hard on Uzbekistan. We are 
holding this hearing to try and improve the situation, but also 
to celebrate the fact that we are better off today than we were 
a year ago in Uzbekistan. This is a country that wants to move 
in the right direction, that has so many opportunities. We are 
publicly commending the progress that they are making.
    I'll let you have the last word, Mr. Ambassador.
    Amb. Brownback. Mr. Chairman, I think it's well said. We 
should celebrate this. I mean, this has been a real effort by 
this country. They've taken specific, tangible acts, and not 
just in religious freedom. They've done it in child labor. 
They've done it in the cotton harvest recently. They've had 
human rights progress. Now, you could say, Okay, well, there's 
still issues to deal with. Yes, but they have made specific and 
tangible progress. They're committed to do it. And the 
president is committed to do it. I had a lengthy meeting with 
him. I've had lengthy meetings with the foreign minister. These 
things don't happen overnight. This is a country that was under 
Soviet rule for many years, and an authoritarian regime. 
Certainly Karimov's regime ahead of Mirziyoyev was an 
authoritarian regime. So they're making a real change, and we 
should celebrate that. We're going to continue to work with 
them.
    One other thing that we offered them to work with is that 
the president's--and we're going to work with him--picking 15 
young leaders in that country, particularly in the government, 
to come here--and we're going to pay for this--in training and 
relationship-building with people about how to run a government 
that pushes human rights, religious freedom. That's been 
offered, and they've accepted. I hope to do with Uzbekistan the 
same thing with other countries in Central Asia, as a way of 
moving forward. So we hope to work with them closely. I've 
offered the Tajiks the same thing. Work with us. We'll get the 
U.N. special rapporteur to do a report so you're not seeing it 
as just from the United States. It's a U.N. report. We'll 
review it and see if that's something that we can back. And 
then let's get you on a track out of CPC designation. Because 
we want to see countries progress on this, not just stay in the 
CPC's designation.
    Mr. Wicker. Well, thank you very much, Mr. Ambassador. We 
stand ready to be your teammate and your partner in this 
regard. Please convey our appreciation to the secretary of 
state and to the president of the United States for elevating 
this as an important issue, and for putting someone of your 
stature and renown to be part of the United States message in 
this regard. Thank you for your effort. I'm looking forward to 
a very productive and positive 2019. As I pass this gavel to 
one of my colleagues in the House of Representatives, please 
know that the Senate will stay involved on a bipartisan basis. 
We want to be there for you and to provide the resource 
support, as well as the public opinion support that we can 
have.
    And with that, we will close this hearing with the thanks 
of the commission. Thank you, sir.
    [Whereupon, at 11:47 a.m., the hearing ended.]

                    <all>


  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
